       The Postal Service Role in the Digital Age
        Part 2: Expanding the Postal Platform




                                  April 19, 2011




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-11-003
U.S. Postal Service Office of Inspector General                                                  April 19, 2011
Part 2: Expanding the Postal Platform                                                         RARC-WP-11-003



                    The Postal Service Role in the Digital Age
                     Part 2: Expanding the Postal Platform

                                          Executive Summary

The Internet and the digital revolution are fundamentally changing the worlds of
communications and commerce. The digital economy continues to grow at a rapid rate.
Electronic substitution of traditional mail is accelerating as both consumers and
businesses adopt electronic processes across multiple domains. Mail users are shifting
from traditional hard copy distribution models to a variety of new ways to digitally
communicate, advertise, or transact. They are attracted to greater convenience, faster
service, and lower cost. The digital revolution has become the “disruptive innovation” 1
to the traditional business of the U.S. Postal Service. With several different
communications channels competing for consumers, the Postal Service needs to
modernize its role to accommodate for the digital age.

The transition to a new digital landscape is already under way, but the path forward is
undefined. The Postal Service should consider new products and services that reflect
the evolving mandate to “bind the nation together” in a new world where people are
increasingly communicating digitally. Using a foundation that links a physical address to
an electronic mail box for every citizen and business, the Postal Service can build a
digital platform that facilitates communications and commerce for postal, governmental,
and commercial applications that are available to all.

The U.S. Postal Service Office of Inspector General Risk Analysis Research Center
(RARC) has initiated a project to study the impact of the digital revolution on the future
of the American postal ecosystem. This paper is the second in a series. The first paper
described the radical changes affecting communications and commerce, identified
trends, and discussed the impacts. This sequel identifies a set of applications the Postal
Service should explore as a first step in redefining its mandated role of “binding the
nation together.” While there is no indicator of how much of our communications and
commerce will go digital, the migration is nonetheless creating a lengthening tail of
digital refugees, which will only increase as the digital revolution progresses.

The conceptual framework depicted in the diagram on the next page constructs a
strategic positioning for the Postal Service to consider. The framework is developed in
response to three guiding principles:

          Providing solutions for the communications problems of the digital age.

          Utilizing the core competencies and assets of the Postal Service.

          Pursuing applications that are considered proper for the Postal Service.
1
    Clayton M. Christensen, The Innovator’s Dilemma (Boston: Harvard Business Press, 1997).


                                                          i
U.S. Postal Service Office of Inspector General                                                                       April 19, 2011
Part 2: Expanding the Postal Platform                                                                              RARC-WP-11-003




                                   Expanding the Postal Platform



                                                             PROVIDING
                                                           SOLUTIONS FOR
                                                          COMMUNICATIONS
                                                             PROBLEMS
                                                                                                                    GUIDING
                                                                                                                   PRINCIPLES




                                         UTILIZING USPS
                                              CORE                               POLICY
                                         COMPETENCIES                        CONSIDERATIONS
                                          AND ASSETS




                                 USPS PLATFORM – WITH eMAILBOX FOUNDATION
                            TRADEMARKED TO USPS, ESTABLISH STANDARDS AND SYSTEMS, OPEN TO ALL                      PLATFORM




                                          SPECIFIC INITIAL APPLICATIONS


                COUPLED                   SECURITY &
                                                          HYBRID AND                                     DIGITAL
                                                                                                                    APPLICATIONS
                 USPS CORE  E-GOVT
                PHYSICAL                   AUTHENTI-
                                                           REVERSE
                                                                              ENABLING E-     DIGITAL
                                                                                                        CURRENCY
               AND E-MAIL                   CATION
               COMPETENCIESSERVICES
                ADDRESS                      TOOLS
                                                          HYBRID MAIL
                                                                              COMMERCE      CONCIERGE
                                                                                                        EXCHANGE




The Guiding Principles

Given the broad array of applications, we present three guiding principles to help the
Postal Service in constructing a strategy:

1. Explore applications that provide solutions to communications problems of the digital
   age:

       The Internet and all of its functionality are not readily available to all citizens,
        some of whom lack skills or bandwidth access, to reap its full benefits.
       There is a potential threat to equal and fair access to the Internet.
       There remain inadequate levels of privacy, confidentiality, dependability, and
        security in digital communications and financial transactions as desired by
        citizens as well as a risk of involuntary profiling.
       The digital infrastructure has a fragility, a susceptibility to viruses, and
        interruptions in service, and is provided by companies that could fail or quickly
        face obsolescence.




                                                                        ii
U.S. Postal Service Office of Inspector General                                     April 19, 2011
Part 2: Expanding the Postal Platform                                            RARC-WP-11-003


       Consumers are experiencing an information overload with an increasing volume
        of electronic communications and applications as well as a lack of tools to
        manage it.
       There is still insufficient availability of affordable digital currency exchanges.
       Limited choice, or total elimination of the physical option, is an issue as
        companies and governments push consumers into digital-only communications
        and transactions.
2. Explore applications that utilize the core competencies and assets of the Postal
   Service, which has:

       A history of acting as a trusted intermediary.
       A position of legal standing for postal communications in the courts and
        government, ensuring that their content remains private.
       Experience in developing and running a national address management database.
       A critical mass of customers, including both businesses and consumers.
       Skill in facilitating communications, especially in the first mile (collecting from the
        sender) and last mile (delivering to the recipient).
       An effective tradition and experience in being the last resort provider.
       A neutral arbiter providing products and services at the lowest combined cost.
       A multichannel infrastructure of points of sales and services (retail, collection,
        and delivery) distinguished by comprehensive national coverage.
       Experience with currency transactions, both domestic and international.
3. Pursue applications that are considered proper for the Postal Service. The following
   questions help make such a determination:

       Is the opportunity in the public interest, linking a wide array of business sectors to
        the American public?
       Is the opportunity appropriate for the Postal Service?
       Is the opportunity needed to assure the Universal Service Obligation (USO)?
       Would a change in policy be required?

The Postal Service Enters the Digital Space

First, the Postal Service should develop a foundation of a permanent one-to-one linkage
between a physical address and an electronic address available to every citizen and
business. The Postal Service would also establish this “eMailbox” to serve as a digital
counterpart to the physical mailbox.



                                                  iii
U.S. Postal Service Office of Inspector General                                   April 19, 2011
Part 2: Expanding the Postal Platform                                          RARC-WP-11-003


Second, the Postal Service can develop and maintain a secure digital postal platform,
accessible to all citizens through a website. Private industry would be invited to provide
commercial solutions and work with the Postal Service on developing effective postal
and governmental applications on the platform to serve all. The Postal Service can fill its
established role of providing a trusted communications infrastructure. This represents a
modern manifestation and a natural extension of its traditional mandate in the physical
space to meet the new requirements of the digital age.
Apple’s strategy of encouraging independent development of applications or “apps” for
its iPhone® and iPad® platforms would serve as a relevant model for independent
development of digital products on the postal platform. Apple invites all developers to
bring their applications to its online App Store, as long as they meet the required
technical and content standards. The Postal Service identifies the standards to allow
innovation and allows market forces to determine success and failure.
Third, the Postal Service could develop on that platform seven initial applications that
adhere to the guiding principles mentioned previously. In addition to the eMailbox with
the physical-digital address linkage, the others include:

       An eGovernment application that promotes the further expansion of government
        services through the postal platform and utilizes the eMailbox to send and
        receive secure and official communication with federal agencies. This could be
        paired with physical kiosks (connected to government department call centers) at
        Post Offices where needed.
       Tools for identity validation, privacy protection, and transaction security that allow
        users to verify the individuals and businesses with whom they are communicating
        and ensure the safety of their personal information and security of their
        purchases and financial transactions.
       Hybrid and reverse hybrid mail that allow senders and receivers to convert digital
        documents to physical, and physical documents to digital. This hybrid solution
        could foster a healthy symbiotic relationship between printed and digital
        communications and help elevate the value of both media.
       Enhancing services for the shipping and delivery of secure online purchases
        through flexible pick-up and delivery options, expanded payment choices, and a
        cost calculation that includes all charges and fees for purchases (even
        international) at the time of sale.
       Digital concierge services that utilize the eMailbox to integrate an individual’s
        physical and digital communications in a single place to manage the “information
        overflow,” as well serving as a curator offering a type of secure “lock box” for
        important communications and other personal documents (such as medical
        records and wills) that can be accessed quickly when needed.
       Develop a network to buy and redeem cash and digital currency both at Post
        Office™ locations and online. A good example is the leveraging of the vast
        geographic coverage of the Postal Service to allow unbanked citizens the ability
        to redeem cash for digital currency in the form of prepaid cards. Such a network


                                                  iv
U.S. Postal Service Office of Inspector General                                 April 19, 2011
Part 2: Expanding the Postal Platform                                        RARC-WP-11-003


        could also facilitate payments between government agencies and citizens, such
        as Social Security payments and tax refunds.

Initial Applications to Explore

The Postal Service could develop the eMailbox foundation as well as eGovernment
applications as a natural first step. The Postal Service would be expanding on its
traditional role, providing secure, authenticated, two-way communication between
government agencies at every level and citizens. It provides the postal platform with
almost instant access to a critical mass of users and makes it attractive to developers
looking to reach consumers. Additionally, the application is timely as government
cutbacks force agencies to explore new and less costly channels for their services.

Developing eGovernment services encounters fewer barriers than other applications.
Current law allows the Postal Service to offer nonpostal products and services to other
government entities. While a number of agencies developed tools for online
transactions and communications, no one party has unified the applications on a single
platform or linked it with a secure electronic identity for individuals.

Ancillary products, within existing legislation, appear to be an area that has not been
fully explored by the Postal Service. This may provide some added flexibility for these
applications without the immediate need for legislative action. Other applications will
arise as innovation and market conditions dictate, though the underlying platform will
remain constant. The paper also suggests a limited role in a much larger ecosystem
and among many other players. This requires mechanisms and processes for inviting
and developing business relationships and strategic alliances with the private, public,
and academic sectors.

Implementation

A key element of a digital strategy lies in the creation or designation of a Postal Service
functional area to own and coordinate the resources for the effort. There are
undoubtedly a myriad of issues (technical, political, and institutional) pertinent to the
implementation of a digital strategy. Those issues are outside the scope of this paper
but would constitute an interesting topic for follow-up work. The adoption of such a
strategy would not only provide a range of new and needed products and services to all
Americans, but would help to reinforce the United States’ standing as a leader in
technology and digital infrastructure. It should be noted that this platform is not a
financial panacea for the Postal Service; it should have a utilitarian focus to help all
citizens and businesses.




                                                  v
U.S. Postal Service Office of Inspector General                                                                    April 19, 2011
Part 2: Expanding the Postal Platform                                                                           RARC-WP-11-003




                                                 Table of Contents

The Changing World of Communications and Commerce .............................................. 1 

The Guiding Principles .................................................................................................... 3 
          Providing Solutions for Communications Problems in the Digital
          Market .................................................................................................................. 3 
          Does the Postal Service Have the Pertinent Core Competencies
          and Assets? .......................................................................................................... 5 
          What Policy Implications Need to be Considered? ............................................... 6 

The eMailbox Foundation and the Postal Platform .......................................................... 9 
          Features of the eMailbox Foundation ................................................................... 9 
          Developing a Postal Platform ............................................................................. 10 
          The Three-Layers Approach ............................................................................... 11 

Initial Digital Applications............................................................................................... 12 
          Coupled Physical and E-mail Address ................................................................ 14 
          eGovernment Platform ....................................................................................... 14 
          Tools for Identity Validation, Privacy Protection, and Transaction
          Security .............................................................................................................. 15 
          Hybrid and Reverse Hybrid Mail ......................................................................... 17 
          Enabling eCommerce ......................................................................................... 18 
          Digital Concierge ................................................................................................ 19 
          Digital Currency Exchange ................................................................................. 19 

Conclusion .................................................................................................................... 20 




                                                                 vi
U.S. Postal Service Office of Inspector General                                                                  April 19, 2011
Part 2: Expanding the Postal Platform                                                                         RARC-WP-11-003




                                                           Tables

Table 1                 The Three Layers of the Postal Platform ............................................. 11 

Table 2                 Opportunity Checklist .......................................................................... 13 


                                                        Appendix

Public Policy Implications and Options for the Postal Service to Bridge the
Digital Divide ................................................................................................................. 23 




                                                                vii
U.S. Postal Service Office of Inspector General                                    April 19, 2011
Part 2: Expanding the Postal Platform                                           RARC-WP-11-003




                   The Postal Service Role in the Digital Age
                    Part 2: Expanding the Postal Platform


The Changing World of Communications and Commerce
The digital revolution is rapidly changing the worlds of communication and commerce. This
is triggering fundamental changes in the postal ecosystem and accelerating the electronic
diversion of traditional hard copy mail. The Postal Service projects continued volume
losses over the course of this decade.2 This phenomenon and other trends have been
chronicled by the OIG in the first paper of this series entitled “The Postal Service Role in
the Digital Age, Part 1: Facts and Trends.”

The Postal Service has been tracking these trends. In the late 1990s, it experimented with
a number of digital products and services. For example, it teamed with several foreign
postal operators to launch a web-based message delivery service called the Poste
Electronic Courier Service or PosteCS. It launched another web-based service in
conjunction with a large communications company, called NetPost Certified to enable
government agencies to secure and authenticate electronic correspondence. The Postal
Service discontinued these products in the early 2000s due to a
slow adoption rate and concerns over their return on investment.       The Postal
Current electronic products include a USPS Electronic Postmark    ®    Service is at a
                                                                       critical juncture.
or EPM®, which was licensed to a third party, and Intelligent Mail®
               ®
barcodes (IMb ), which can track mail from inception to delivery. A
key element in surviving business disruption and fostering innovation is drawing lessons
from past and present efforts.

For instance, Polaroid, once a global supplier of cameras and film, did not adapt quickly
enough to the force of change in its industry and found itself marginalized as consumers
switched to digital alternatives. Leading DVD mailer Netflix (a large postal customer) is
already deliberately converting its business model to take advantage of a lower cost online
movie delivery method. Craigslist has greatly undermined the multi-billion dollar classified
newspaper establishment by providing mostly free classified advertising and charging only
for employment and real estate ads.

The Postal Service is at a critical juncture. It can stick to its declining traditional business or
evolve and expand its postal platform to the digital realm. It can become a victim of digital
disruption and go the way of Polaroid, or it can learn from Netflix, and incorporate the
advantages of digital communication into its business operations. The decision to change
is not without risks, but an even greater risk would be not to change at all. Netflix has taken


2
  Boston Consulting Group, Projecting US Mail Volumes to 2020, March 2010,
http://www.usps.com/strategicplanning/_pdf/BCG_Detailed%20presentation.pdf.


                                                      1
U.S. Postal Service Office of Inspector General                                                    April 19, 2011
Part 2: Expanding the Postal Platform                                                           RARC-WP-11-003


a significant risk that is showing early signs of success, but Polaroid, despite some recent
small-scale success, waited too long to adapt.3

This paper suggests that the Postal Service should examine entering the digital space and
that this would be consistent with its mandate to “bind the nation together.” This would
apply a modern interpretation and a natural extension of this role to a new environment.
Microsoft has even recognized this position of trust and believes that it should be applied
to the digital world when the company stated that postal operators such as the Postal
Service could “meet the public need for trusted electronic communications in a way that no
private sector organization could rival.”4

The paper constructs a strategy for the Postal Service’s positioning in this new space. The
strategy is framed by three guiding principles:

       Promoting solutions for the communications problems of the digital age.

       Utilizing the core competencies and assets of the Postal Service.

       Considering the policy implications of the strategy based on the current legal and
        regulatory environment.




3
  “Netflix now No. 2 video subscription service, earnings impress Wall Street again,” Los Angeles Times,
January 26, 2011, http://latimesblogs.latimes.com/entertainmentnewsbuzz/2011/01/netflix-now-no-2-video-subscription-
service-earnings-impress-wall-street-again.html and Don McCrae, “Miss the Big Picture, Fade Like Polaroid,” Bloomberg
Business Week, October 23, 2002, http://www.businessweek.com/careers/content/oct2002/ca20021023_9615.htm.
4
  Microsoft Corporation, “Reply Comments of Maxim Lesur, Worldwide Postal Industry Managing Director for Microsoft
Corporation,” Postal Regulatory Commission Docket No. MC2008-1, August 20, 2008, p. 5.


                                                        2
U.S. Postal Service Office of Inspector General                                                        April 19, 2011
Part 2: Expanding the Postal Platform                                                               RARC-WP-11-003




The Guiding Principles
All three sets of guiding principles are equally important to developing a positioning
strategy. This analysis makes a case for moving the Postal Service into the digital world.

             COMMUNICATIONS PROBLEMS

    1. Internet and consumer tools unavailable to all
    2. Threats to the concept of equal and fair access
       to the network for all
    3. Lack of privacy, confidentiality, and security
    4. Limitations of digital infrastructure
                                                                                               POLICY CONSIDERATIONS
    5. Short-lived nature of many companies
    6. Information overload                                                                         THE CRITERIA
    7. Insufficient availability of affordable digital
       currency                                                                               1. In the public interest?
                                                                                              2. Is it appropriate for USPS?
    8. Limits of consumer choice
                                                                                              3. Related to USO?
                                                                                              4. Change in policy required?
                                                               PROVIDING
       USPS CORE COMPETENCIES                                SOLUTIONS FOR
             AND ASSETS                                     COMMUNICATIONS
                                                               PROBLEMS
     1. Trusted Intermediary
     2. Legal standing
     3. Address management
     4. Critical mass of senders/
        receivers
     5. First/last mile experience
     6. Lowest combined cost
        provider




                                      UTILIZING USPS CORE                        POLICY
                                      COMPETENCIES AND                       CONSIDERATIONS
                                             ASSETS




First, the rapid growth and lack of established standards in providing digital
communications have contributed to an expansive list of communications problems that
need attention. Opportunities for the Postal Service in this sphere address unmet market
needs stemming from those problems. Second, an examination of Postal Service core
competencies suggests that a natural extension of its trusted intermediary role in serving
the American people could help fill these gaps and shortcomings through the introduction
of an array of new digital services. Finally, the digital strategy requires careful
consideration of public policy questions to ensure that pursuing such opportunities
constitutes a proper role for the Postal Service.

Providing Solutions for Communications Problems in the Digital Market

While hundreds of millions of users already rely on digital communications, the current
digital operating platform, provided by the private sector, has shortcomings in both
capabilities and access.




                                                                 3
U.S. Postal Service Office of Inspector General                                             April 19, 2011
Part 2: Expanding the Postal Platform                                                    RARC-WP-11-003


       The growing digital refugee population – While the federal government has
        embraced the goal of universal service for mail and
        telephone service, it has yet to extend a similar goal to the     This lengthening
        digital world. The Internet and all of its functionality are not  tail of digital
        available to all citizens, which constrains their ability to reap refugees will
        its economic benefits. This lengthening tail of digital           continue as the
                                                                          digital revolution
        refugees will continue as the digital revolution progresses.
                                                                                    progresses.
       Threats to equal and fair access to the Internet – The
        principle of “network neutrality,” which promotes equal access and fair treatment of
        network traffic, is threatened. Individuals and businesses have no guarantees that
        platforms will provide them the equal treatment without preference and the same
        choice of control over services. A recent American University study on Washington
        D.C.-area residents found that poorer neighborhoods in the city received poorer
        broadband quality per dollar than nearby suburban customers.5
       Lack of adequate privacy, confidentiality, dependability, and security – Many
        citizens remain concerned about adequate levels of privacy, confidentiality,
        dependability, and security in digital communication and transactions. Concerns
        over the control of sensitive information, the potential for involuntary profiling of
        consumers and the placement of tracking cookies, as well as the implications of
        further developments in technology, are issues in developing these standards.
       Digital infrastructure limitations and the transient nature of business – The digital
        infrastructure has limitations in connectivity and bandwidth and is, in some cases,
        provided by companies that could fail, stranding their customers. Rapid changes in
        technology and consumer behavior can affect the level and breadth of demand on a
        given platform. Consistency and permanence are powerful forces.
       Information overload – A lack of adequate personal information management tools
        makes it difficult to deal effectively with the excess of electronic communications
        and applications. A curator for personal information, storing financial transactions,
        health records, and other key data and providing efficient delivery of information
        when needed, is lacking.
       Insufficient availability of affordable digital currency exchanges – Consumers
        without ready access to online financial tools are at a disadvantage in the digital
        world. They do not have access to affordable digital currency and secure and
        convenient methods to transact online. They must pay predatory fees to convert
        digital money into cash and vice versa. As the eCommerce choices increase for
        consumers globally, there is a corresponding need for seamless cross-border
        payments.
       Limited choice of communication and transaction channels – As companies push
        consumers into digital-only communications, consumers see their choices limited, or
        even face complete withdrawal of the physical option. What might have been


5
 Benjamin Orr, “Do Low-Income Households Get Slow Broadband by Design?” The New Republic, February 28, 2011,
http://www.tnr.com/blog/the-avenue/84325/do-low-income-households-get-slow-broadband-design


                                                    4
U.S. Postal Service Office of Inspector General                                     April 19, 2011
Part 2: Expanding the Postal Platform                                            RARC-WP-11-003


           originally offered as an additional option for the consumer could become a new way
           for companies to control communications.
These challenges and gaps present market opportunities for the Postal Service. Over the
past two centuries, the Postal Service has provided a secure, universally accessible
platform for physical commerce and communications. The opportunity exists for the Postal
Service to extend its trusted intermediary role into the digital age and act as a “bridge” to
facilitate the advancement of access to the Internet and develop a “trust portfolio” of digital
postal services.
This role may take on many different forms, but by working with leading communications
service providers and applications developers, the Postal Service has the opportunity to
shape and enforce industry standards that would fill some of the identified gaps in the
current digital marketplace. The Postal Service can leverage its assets and work with other
government agencies and private sector providers to serve as a bridge between the
physical and digital worlds.

Does the Postal Service Have the Pertinent Core Competencies and Assets?

The Postal Service has delivered correspondence and commercial transactions — letters,
periodicals, catalogs, and packages — across the domestic and global channels for more
than two centuries. These core competencies and assets from its traditional business
operations could position the Postal Service to enable the distribution of digitized products
as effectively as it has distributed traditional physical items. It would still fulfill the role as
the provider of last resort for those who have fewer choices.
          A history as a trusted intermediary – For the past 236 years, the Postal Service has
           adeptly executed its mission “to provide postal services to bind the Nation together
           through the personal, educational, literary, and business correspondence of the
           people.” It has provided “prompt, reliable, and efficient services to patrons in all
           areas and (has rendered) postal services to all communities.”6 In the 21st-century
           interpretation of its 18th-century mission, the Postal Service serves as the official
           national platform for the secure distribution of society’s communications and
           commerce throughout the postal ecosystem, linking industries to the American
           public.
          A position of legal standing for postal communications – The Postal Service’s
           position as a standard for communications is recognized by every level of
           government as well as the courts. The postmark placed on mail is commonly
           recognized as a date stamp for everything from tax returns to legal filings. Mail also
           has legal protection, as unauthorized opening or tampering with the U.S. Mail™ is
           considered a federal offense. First-Class Mail® is considered “sealed against
           inspection,” a law dating back to colonial times protecting the mail from theft,
           interference, fraud, and forgery. This protection could apply to digital applications,
           ensuring that communications remain private and their content secure from third
           parties.


6
    39 U.S.C. § 101.


                                                  5
U.S. Postal Service Office of Inspector General                                  April 19, 2011
Part 2: Expanding the Postal Platform                                         RARC-WP-11-003


       Experience in developing and running a national address management system –
        The Postal Service has established an addressing system that identifies each
        delivery point, or address, in the country so mail reaches its intended recipient,
        whether sent to a household or business. Relying on a set of addressing standards,
        it securely maintains and updates this vast national database. In addition, the
        values of affordability, reliability, universal accessibility, and security as promised
        and provided by the U.S. government, are critical and must be preserved in any
        interpretation of the Postal Service mission.
       A critical mass of customers –The Postal Service has the largest customer base in
        the nation. Every household and every business sends or receives mail on a daily
        basis, providing a truly national as well as local presence. In providing this wide
        customer base with a uniform range of products and services, the Postal Service
        has also gained experience in rolling out products from a small scale to the national
        level. While other companies may propose and launch new ideas before the Postal
        Service, few have the capabilities or infrastructure to serve every household and
        business.
       Facilitating communications in the first and last mile – While there is a cost to
        meeting its Universal Service Obligation, the Postal Service also derives benefits
        from its experience in the first mile (receiving mail and parcels) and last mile
        (delivering mail and parcels). As a result, competitors in parcel delivery regularly
        outsource returns and some residential deliveries to the Postal Service.
        Furthermore, daily delivery to every address enables the Postal Service to more
        efficiently maintain and update its address management system.
       Acting as the last resort provider at the lowest combined cost – By outsourcing to or
        collaborating with private companies as well as investing in technologies and
        strategies to improve internal efficiencies, the Postal Service keeps prices
        affordable for mailers and consumers by introducing and adopting “worksharing.”
        The Postal Service offers an unbeatable combination of low prices with efficient
        delivery, unmatched anywhere in the world. This experience could be transferred to
        online operations and offerings.
       Experience with currency transactions – The Postal Service has a long history of
        acting as a last resort provider for currency transactions. Domestically, postal
        money orders have been offered for nearly 150 years. Internationally, the Postal
        Service offers money orders to 30 countries and wire transactions to 10. Postal
        Service clerks have amassed significant experience in this line of products over the
        years, enhancing the Postal Service’s role as a trusted intermediary in handling
        currency transactions.

What Policy Implications Need to be Considered?

The Postal Service served as a platform in its traditional role of providing a physical
infrastructure to facilitate communications and commerce throughout the United States.
From a policy perspective, the question is whether the Postal Service should play a similar
role in the digital space.


                                                  6
U.S. Postal Service Office of Inspector General                                                       April 19, 2011
Part 2: Expanding the Postal Platform                                                              RARC-WP-11-003


Certainly, there appears to be a national need to provide a digital platform with the
trademark characteristics — affordability, reliability, universal accessibility, and security —
of the Postal Service physical platform. As part of this strategy’s guiding principles, this
paper presents the following core questions:
        Is the application in the public interest? – Generally, the government provides
         services as a last resort when the role cannot or will not be easily filled by the
         private sector. If the Postal Service fills one of the many gaps or shortcomings in the
         digital space, would this be an appropriate role for the U.S. government? If so, is the
         Postal Service the best agency for that role or is there another governmental entity
         with sufficient core competencies to fulfill the role or provide the service?

        Is the application appropriate for USPS? – Would the Postal Service be in direct
         competition with private companies or is this a product or service not being
         adequately provided in the market currently? Could this be an opportunity for a
         strategic partnership or cooperative effort combining the Postal Service’s core
         competencies with private sector innovation?

        Is the application needed to assure the Universal Service Obligation? – Does the
         application support the core mission of the Postal Service, which is to bind the
         nation together through personal, educational, literary, and business
         correspondence? Would the digital application be a natural extension of a product
         or service already provided in the physical world and part of the portfolio of products
         accessible to every American household and business?

        Would a policy change be required? – Some services are already offered by the
         Postal Service in some capacity. Would adding additional features require
         approval? Does the application meet the Postal Accountability and Enhancement
         Act’s (PAEA) definition of a postal service (defined as “the delivery of letters, printed
         matter, or mailable packages, including acceptance, collection, sorting,
         transportation, or other functions ancillary thereto”7)? Could some of these
         applications be classified under “ancillary service” provisions while others could
         perhaps meet the criteria to be tested as experimental products?8 Would the Postal
         Service need changes in policy to pursue the application?
    Two critical questions must be answered by policymakers and the Postal Service, but
    are outside the scope of this paper. They include:
        Does the application fit the definition of a postal product or service? – Current laws
         restrict the Postal Service from providing nonpostal services, which have
         traditionally been associated with the transport and delivery of physical mail. Would
         new applications in the digital space fit a modern definition of a postal product or
         service? Is the application already being pursued by the private sector and is there
         already a product or service commercially available?

7
 39 U.S.C §§102-105.
8
 The Postal Accountability and Enhancement Act, Section 203, §3641 describes the conditions necessary for carrying
out a market test for experimental products. Among other requirements, the product must be “significantly different” or
novel and cannot create an unfair or inappropriate competitive advantage.


                                                          7
U.S. Postal Service Office of Inspector General                                 April 19, 2011
Part 2: Expanding the Postal Platform                                        RARC-WP-11-003


       Is the application relatively feasible? – Would the Postal Service be able to
        implement an initiative in a timely enough manner for it to have a reasonable
        chance of success? Would the application generate revenue or at least break even
        over 5 years? Does the Postal Service have the internal expertise (or organizational
        structure) or could it easily collaborate with a third party to develop the service and
        create a cobranding partnership or private label service? The Postal Service already
        enables and relies on a great number of private entities. Together, they too add
        value to users’ postal transactions with convenience, cost reduction, and speed of
        completion.




                                                  8
U.S. Postal Service Office of Inspector General                                      April 19, 2011
Part 2: Expanding the Postal Platform                                             RARC-WP-11-003




The eMailbox Foundation and the Postal Platform
Critical to the postal strategy is the development and deployment of an “eMailbox.” The
eMailbox would serve as a foundation to capitalize on the range of possible initial
applications outlined in the succeeding section.



                                                  USPS PLATFORM
                                         WITH eMAILBOX FOUNDATION




                                                     Established
                             Trademarked to         Standards and
                                 USPS                  Systems      Open to All




Features of the eMailbox Foundation

The eMailbox would serve as a single official U.S. Mail branded e-mail box at a secure
website. Individuals could collect all daily mail from their eMailboxes. The standard
features of the eMailbox would include:
   Every individual would have a permanent single eMailbox address.

The eMailbox                 Linkage to other government initiatives, such as the National
would serve as a              Strategy for Trusted Identities in Cyberspace (a federal
single official               cybersecurity-focused identity management vision and strategy).
U.S. Mail branded
e-mail box at a
                             eMailbox addressing standards would be officially established and
secure website.               maintained in the same manner as current Postal Service ZIP
                              Code addressing standards.
   With the eMailbox as the foundation for the electronic platform, the Postal Service
    would then have the ability to deliver both physical and electronic items and facilitate
    the receipt of the messages in both electronic and physical formats.
   The eMailbox allows the receivers to choose to receive mail from individual senders by
    either physical or electronic delivery. The receivers would have the opportunity to opt in
    and transition to full electronic delivery at their own pace.
   Using the link to the physical mailing address, commercial mailers would maintain
    uninterrupted customer contact.
   Most individual physical delivery addresses would have multiple residents, each
    requiring a unique eMailbox address.



                                                       9
U.S. Postal Service Office of Inspector General                                                  April 19, 2011
Part 2: Expanding the Postal Platform                                                         RARC-WP-11-003


   With anywhere, any device access, it provides those without a permanent address the
    ability to move into the digital economy and avoid the additional costs associated with
    paper mailings.
   Mail recipients would be provided with the online tools to easily manage their mail
    delivery options and channels, such as changing physical addresses when moving or
    holding and forwarding mail when away.
   Mail recipients could express channel preferences to mailers for mail content received.
    For example, a customer interested in receiving coupons from a local grocery store
    could choose to receive them electronically at their eMailbox rather than in paper form.
   eMailbox users would be offered secure storage solutions for electronic documents,
    preference-based filters, and solutions to help manage communications, community
    connections for notices and community activities, as well as government and city
    connections.
   Address-coupling technology, which connects physical and e-mail addresses, exists
    and applications are currently available in the U.S. mail market, as offered by Zumbox.
    Other solutions from postal service providers and foreign postal operators will soon be
    available. Pitney Bowes has announced its “integrated” addressing concept called
    Volly™, while Hearst is rolling out Manilla. Norway Post recently launched its Digipost
    digital mailbox service as well.
   The Postal Service will need to analyze and determine the type of nomenclature or top-
    level domain name for the eMailbox. E-mail addresses could use the well-known .com
    or .gov or the new top-level domain name .post, which was approved for use by postal
    operators and managed by the Universal Postal Union (UPU), a technical agency of the
    United Nations responsible for the regulations and standards of international mail.9
    While the .post project has multiple applications in eGovernment and eCommerce, the
    domain name could serve as a critical component of the overall platform.

Developing a Postal Platform

The first step in platform development is trademarking. Such a step is necessary to ensure
full protection and preserve its exclusive designation as a trusted intermediary and enabler
for the businesses and individuals utilizing it. The Postal Service has a great deal of
experience in registering and enforcing trademarks for a wide range of products and
services. This “USPS Platform” would be universally recognized just as the iPhone App
Store is trademark–protected by Apple® Inc.

The second step is establishing standards and systems for operating on the platform. The
standards requirements would need to be approved by Postal Service management and
conform to U.S. regulatory bodies and national and international standards organizations.
These could encompass everything from cyber security to Internet Protocol addressing
requirements to adhering to Payment Card Industry Data Security Standards. The Postal

9
 Universal Postal Union, “ICANN Grants UPU .post top-level domain,” news release, December 11, 2009,
http://www.upu.int/en/media-centre/news/union-postale-emag/underway-news/category/technology/article/52/icann-
grants-upu-post-top-level-domain-1.html.


                                                      10
U.S. Postal Service Office of Inspector General                                          April 19, 2011
Part 2: Expanding the Postal Platform                                                 RARC-WP-11-003


Service would also determine the types of systems and applications suitable for the
platform. Finally, the platform would be open to all. The cooperative outsourcing spirit of
worksharing on the physical mail platform should expand to the digital platform.

The Three-Layers Approach

The applications would be developed within three layers (see Table 1). The Platform
Infrastructure layer is the core of the approach providing the hardware and tools that are
open for others to leverage. For Apple, this would include its all-important iPhone and iPad
platforms, while for the Postal Service this would mean such core assets as its address
management database, the retail network, and track and trace systems. The
Entrepreneurial layer forms a stratum atop the platform infrastructure and allows
individuals and businesses of all sizes to utilize existing infrastructure to create new value.
Apple’s vast array of 350,000-plus iPhone apps provides the best example. Comparable
examples for the Postal Service would be Intelligent Mail barcodes and worksharing.

The Strategic Alliance and Network layer makes up the last component, which creates a
broad system of alliances and networks between the owner of the core assets and the
players on the platform. In Apple’s case, this is illustrated through its maintenance of the
App Store, where users, entrepreneurs, and other players partner with Apple and amongst
themselves to develop an entire subsystem of applications, accessories, and other
offerings composing an entire community. For the Postal Service, this would include
senders and addressees as well as third-party players from across industry and
government collaborating, partnering, and even cobranding applications.

                             Table 1: The Three Layers of the Postal Platform
        Layer                              Characteristics                            Examples
Platform                 The Postal Service provides the foundation as          iPhone, iPad, and
Infrastructure           well as defines the standards and types of             iPhone App Developer
                         systems that can be used                               Kit
Entrepreneurial          Businesses of every size and individuals create        iPhone Apps
                         value on top of the provided platform
Strategic                The Postal Service partners with key industry          Apple community of
Alliance/Network         players in creating mutually beneficial products       businesses and
                         and services through business relationships that       consumers
                         grow the ecosystem through outsourced,
                         cobranded, and private label products

If services such as these were enabled on the postal platform and endorsed, facilitated,
and promoted by the Postal Service, consumer adoption would likely be achieved at a
higher rate. Not only would the powerful promotional reach of the Postal Service brand be
significant, its official endorsement and authorization would serve as the stamp of approval
and extension of the all-important element of trust.
The highly successful, fast-growing online postage program offers a precedent for the
Postal Service to license applications from third parties. Consumers and small businesses
alike are buying postage online from applications provided by approved vendors such as
eBay, Endicia®, Pitney Bowes, and Stamps.com®.

                                                  11
U.S. Postal Service Office of Inspector General                                   April 19, 2011
Part 2: Expanding the Postal Platform                                          RARC-WP-11-003




Initial Digital Applications
This section identifies and analyzes the seven applications the Postal Service could
develop, in addition to its established suite of electronic services, to extend its physical
postal platform into the digital realm. Some should be seen simply as responses to
customer-service demands. Others may amount to new revenue opportunities. Several
may fall outside of its current allowable operating authority, but still should be considered.
Finally, some applications may be provided by other government agencies, private
businesses, and emerging entrepreneurs. In this case, the Postal Service could act as an
impartial enabler, collaborator, or advocate. All would be contingent upon connecting an
individual’s physical address to an e-mail address for each registered individual.




Table 2 provides an overview of the initial applications discussed in this paper. It also
provides a summary of our analysis (based on the guiding principles) on why the Postal
Service is in the best position to pursue these applications. The public policy implications
and options are discussed in detail in the Appendix. Those require critical deliberations.
Unlike a private company, the Postal Service is not free to design and implement an e-
business strategy as it deems fit. Any strategies or services must be consistent with
existing public policy and regulatory constraints, or must await changes to allow the Postal
Service to undertake them.

While the Postal Service has offered some of these products on a smaller scale in the
past, others are new and would require development and cooperation with third parties.
Overall, the digital initiatives that appear to be the best fit for the Postal Service can be
categorized into three groups: those related to the Postal Service’s physical delivery of
mail, those that would address gaps in the digital space, and those that would deliver
government services and information through a combination of physical and electronic
means.




                                                  12
U.S. Postal Service Office of Inspector General                                                                        April 19, 2011
Part 2: Expanding the Postal Platform                                                                               RARC-WP-11-003


Section 101 of the PAEA defines postal services as “the delivery of letters, printed matter,
or mailable packages, including acceptance, collection, sorting, transportation, or other
functions ancillary thereto.” The term ancillary has not yet been fully defined through the
regulatory filing process so that many of the proposed digital products and services may
supplement or be a natural extension of current products and services. For other
initiatives, new statutory authority may be necessary. Ongoing legislative debates provide
the Postal Service with an opportunity to make its case to policymakers to seek the
necessary changes.

                                            Table 2: Opportunity Checklist
                                                                                                   Public Policy Criteria




                                                                                   In the public



                                                                                                      Appropriate
                                                                                                      for USPS?


                                                                                                                      Related to



                                                                                                                                   Requires
                                                                                   interest?




                                                                                                                                   change?
                                                                                                                                   policy
                                                                                                                      USO?
  Opportunity         Description            Why use the Postal Service?
 Coupled         Enable individuals with      Address data                         Yes               Yes             Yes          Possibly
 Physical and    an authorized U.S. Mail      Identify individuals & establish                                                      Yes
 e-mail          physical address to           electronic connection
 Address:        have an eMailbox             Brand/Reach
 “eMailbox”      address.
 eGovernment     Enable a common                First & Last mile connection       Yes              Yes10            Yes            No
 Platform        transaction platform for       Physical locations
                 government services.           Identity Validation
                                                eMailbox
 Identity        Enable identity                Address data                       Yes             Possibly          Yes            Yes
 validation,     validation by linking the      Physical locations                                   Yes
 privacy         physical identity to the       eMailbox
 protection,     eMailbox.
 and financial
 security
 Hybrid and      Convert digital              First & Last mile connection         Yes             Possibly          Yes          Possibly
 Reverse         documents to physical        Physical locations                                     Yes                            Yes
 Hybrid Mail     and vice versa for           eMailbox
                 senders and receivers.
 Enabling        Connect senders and            First & Last mile connection       Yes             Possibly          Yes          Possibly
 eCommerce       receivers physically and       Physical locations                                   Yes                            Yes
                 electronically to offer        Brand/Reach
                 returns, landed cost,          Identity Validation
                 and payment solutions.         eMailbox
 Digital         Provide tools to help          First & Last mile connection     Possibly          Possibly        Possibly         Yes
 Concierge       individuals manage their       Brand trust                        No                Yes             Yes
                 communications across          Physical locations
                 all channels.                  eMailbox
 Digital         Mechanisms to conduct          First & Last mile connection       Yes             Possibly        Possibly         Yes
 Currency        financial transactions at      Brand trust                                          Yes             Yes
 Exchange        post office locations and      Physical locations
                 online.                        Identity Validation




10
  Though an eGovernment services platform is not defined under PAEA, the Postal Service is allowed to provide
services to other government agencies.


                                                            13
U.S. Postal Service Office of Inspector General                                                     April 19, 2011
Part 2: Expanding the Postal Platform                                                            RARC-WP-11-003


Coupled Physical and E-mail Address

Connecting a physical address to an e-mail address is the underpinning of the overall
digital platform expansion. The key features of the coupled address and creation of an
eMailbox are explained in detail in the preceding section on the eMailbox Foundation and
the Postal Platform.

eGovernment Platform

A natural domain for the Postal Service to establish itself is within the U.S. Government. It
should begin with binding government entities with each other as well with their
constituencies. Federal departments and programs, such as the Internal Revenue Service,
                            Social Security Administration, Medicare, Veterans
 A natural domain for       Administration, and U.S. Census Bureau, depend upon the
 the Postal Service to      Postal Service to reliably deliver confidential communications,
 establish itself is with   personal data, and financial transactions to residents. However,
 the U.S. Government
                            government agencies are initiating digital communications
 itself.
                            strategies to both cut costs due to growing budgetary constraints
and enhance customer service. If government entities were to invest in separate digital
platforms, taxpayer funds would be wasted. The Postal Service enjoys a high level of trust
amongst hundreds of millions of recipients of government-originated mail, not to mention
the government agencies themselves. These essentials would continue as part of the
digital postal platform available to all entities.

Secure National Database

In addition to facilitating communications and managing the flow of data between agencies
across the postal platform, the Postal Service is the ideal agency to store the personal
digitized data of the nation’s citizens. Through its hosting of the physical address files for
every business and household in America, it has proven the value of a consolidated
centralized national database securely managed according to strict standards.

As the most trusted federal agency11, the Postal Service should serve its citizens as the
secure connection to other centralized federal government personal databases, such as
social security, law enforcement, veterans, passport, etc., as well as state voting, driving,
education, and real estate records. A trusted centralized access point to personal
consumer data, such as credit and health records, would also be appealing to many on an
opt-in basis.

Getting started with eGovernment

A Postal Service platform strategy would synchronize well with an overall eGovernment
strategy. Given the current absence of such a plan, the Postal Service could seek the
creation of an interagency task force charged with defining a comprehensive eGovernment
approach. The Postal Service could be at the forefront of implementation efforts with
11
   Ben Bain, “For privacy protection, survey says this agency delivers,” Federal Computer Week, June 30, 2010.
http://fcw.com/articles/2010/06/30/web-federal-agencies-privacy-trust-survey.aspx.


                                                        14
U.S. Postal Service Office of Inspector General                                                     April 19, 2011
Part 2: Expanding the Postal Platform                                                            RARC-WP-11-003


respect to reaching the U.S. population. In particular, the Postal Service could assist other
agencies in determining the appropriate mix of digital and hard copy outreach to
Americans, and could be the vehicle for delivering those communications, perhaps pairing
online efforts with kiosks that would be located in Post Offices in areas with limited
broadband access.

Of course, in developing an eGovernment-wide strategy, it would be important to work in
concert with other government agencies in developing their outreach strategies and with
the existing agencies that already have some jurisdiction in the digital space, such as the
Federal Communications Commission, Federal Trade Commission, and the National
Telecommunications and Information Administration.

A lengthy analysis of eGovernment services is unnecessary; PAEA’s definition of postal
services, as detailed in a recent study by the Institute for Research on the Economics of
Taxation (IRET), states, “The law permits the [Postal] Service to provide nonpostal
services to other government entities.”12

Furthermore, an eGovernment initiative could be a major component of an overall
government services strategy – something that several observers have suggested as a
logical opportunity for the Postal Service to pursue. For example, Postal Regulatory (PRC)
Commission Chairman Ruth Goldway, in December 2, 2010, testimony noted: “In general,
Postal Service ‘federal’ agreements have increased the availability of government services
for residents, added operational flexibility for government agencies, and provided
incremental revenue to the Postal Service. Appropriately applied, such arrangements
promise to be similarly beneficial at the state and local level.”

Separately, the IRET study concluded the Postal Service could pursue a number of
nonpostal government services under PAEA, stating, “The Postal Service would be wise to
take several steps. Internally, it should examine its operations and resources, looking for
activities that it thinks would assist other government agencies, help the public, be
profitable for the Postal Service, and not impair mail delivery. It should also seek ideas
from the postal community. Additionally, the Postal Service should consult with federal,
state, and local governments about possibilities for cooperation.” This is particularly true as
many state and local government officials continue to seek ways to cut costs and services
to close budget deficits.

Moving beyond eGovernment to serving as a digital platform open to all users raises
additional questions that the Postal Service and other stakeholders would have to address
— but the dialogue could start while the eGovernment platform is under development.

Tools for Identity Validation, Privacy Protection, and Transaction Security

The Postal Service has earned its reputation as the most trusted federal government
agency by being a reliable delivery partner for 236 years. Customers will regularly drop

12
   Michael Schuyler, “Opportunities for the Postal Service to Deliver Nonpostal Government Services,” IRET
Congressional Advisory No. 270, Institute for Research on the Economics of Taxation, November 30, 2010,
http://iret.org/pub/ADVS-270.PDF.


                                                        15
U.S. Postal Service Office of Inspector General                                                     April 19, 2011
Part 2: Expanding the Postal Platform                                                            RARC-WP-11-003


their most personal secrets and prized possessions “in the mail” without reservation.
Moreover, federal law protects the items they send.

Identity Validation

Security is fundamental to the current postal platform and must be a significant part of the
digital platform. Given the current gaps in the digital world, the digital postal platform can
be part of an overall solution to close these gaps. Working with the Department of
Commerce, the Postal Service could help enable the National Strategy for Trusted
Identities in Cyberspace, a federal initiative designed to improve the security and
convenience of online transactions. By leveraging the existing assets — namely the
address database and physical post offices across the country — in combination with
future assets such as the eMailbox, the Postal Service could enable both identity
authentication and identity validation. With capabilities for end-to-end identity assurance,
the platform will facilitate individual identity management and, with the right partners,
increase the potential for privacy and financial transaction security. This authorization can
then be used to enable financial transactions and further enhance the digital economy.

Privacy

Privacy is another physical world attribute that does not yet exist with full assurance in the
digital world. The Postal Service could use its reputation to influence the development of
trusted privacy applications while advocating for consistent consumer rights across the
platforms. In a December 2010 decision,13 a federal appeals court ruled that there are
fundamental similarities between e-mail and traditional forms of communication such as
postal mail and telephone calls and declared that e-mail should be afforded the same
Fourth Amendment protections against unreasonable searches and seizures.

Yet, for some people, the lack of adequate privacy when communicating on the Internet
tops their list of concerns. In fact, as a key element of digital postal platform, security
represents the widest gap in the digital divide.

Transaction Security

With all its acknowledged and proven advantages such as cost, convenience, and speed
of execution, the Internet presents significant risks for users. Many commercially available
Internet security tools exist to protect against a growing market in “cyber crime” and they
are largely effective. However, they do not hold the level of trust that consumers have in
the Postal Service.

There remains a struggle between those who develop secure financial transaction
software and those who try to exploit its weaknesses. In order to evolve into a cashless
society, the infrastructure requires innovations in both currency and security of payments.
New developments in e-currency will need to combine ease of use with the security
features demanded by consumers. The fear of having credit card data stolen remains an
issue for all Americans whether a Baby Boomer or a member of Generation Y.
13
   For more information, see United States v. Warshak, Sixth Circuit Court of Appeals, December 14, 2010,
http://www.ca6.uscourts.gov/opinions.pdf/10a0377p-06.pdf.


                                                        16
U.S. Postal Service Office of Inspector General                                  April 19, 2011
Part 2: Expanding the Postal Platform                                         RARC-WP-11-003


In cooperation with private-sector innovators, the Postal Service already has enabled the
development of online postage payment applications; in fact, these have become one of
the most popular retail postal applications. The Postal Service has the opportunity,
influence, and credibility to advocate for the development of security tools for its digital
postal platform by entrepreneurs, established private businesses, and other government
agencies.

Hybrid and Reverse Hybrid Mail

Echoing investments and the direction of other posts, the Postal Service should consider
expanding hybrid mail applications as an early step on the bridge across the digital divide.

       Digital to physical – Hybrid mail typically begins as a digital document, such as an
        invoice, that is securely transmitted to one of many remote printers located closer to
        the recipient’s address (its final destination). There it becomes a physical document
        and is inserted into an envelope, presorted, mailed, and delivered conventionally by
        letter carrier. Another approach allows a consumer or small business to access a
        web-based template for printing and mailing photo postcards or direct marketing
        pieces from a central location. The Postal Service maintains strategic partnerships
        with a number of companies in this area including Click2Mail™, Cardstore.com, and
        PremiumPostcard. Other third-party providers of these services include Pitney
        Bowes 1ntegrate, Immediate Mailing Services, and DigitalToPrint, which specializes
        in distributing hybrid mail overseas.

       Physical to digital – Reverse hybrid mail begins as a conventional letter received at
        a central location, where it is scanned and made available to the addressee on a
        secure website or delivered to the e-mail address. The recipient can then view,
        forward, discard, or store it like other document files. A service like this is
        commercially available in the United States from Earth Class Mail and offered in
        Europe by SwissPost.

Hybrid and reverse hybrid mail are applications that are facilitated by having both physical
and electronic platforms and further encourage innovation to pair physical mail with its
digitized counterpart and electronic mail with its physical equivalent. When paired with an
eMailbox, this hybrid focus would further enhance the value of the electronic platform and
connect more people to the network.

In these applications, hybrid mail employs the convenience, low cost, perceived
environmental benefits, and speed of digital transmission and display, with the desired
appeal and familiarity of conventional letters and cards. Reverse hybrid mail empowers the
consumer, particularly those that have made the full leap to digital, to receive their physical
mail in digital form. This is particularly attractive to traveling executives and for businesses
attempting to reduce mailroom costs.




                                                  17
U.S. Postal Service Office of Inspector General                                                 April 19, 2011
Part 2: Expanding the Postal Platform                                                        RARC-WP-11-003


Enabling eCommerce

eCommerce and mobile commerce (mCommerce) markets are growing globally. For many
consumers and businesses alike, this market has several key barriers that are curtailing its
full development.

For potential e-tailers developing an end-to-end solution can be a challenge even though
the eCommerce value chain is well understood and many companies offer services for:
marketing and merchandising; on-line ordering and payment; warehousing, pickup, pack,
and ship operations; residential delivery; customer service; and returns. However, many
smaller e-tailers face serious challenges in integrating multiple services efficiently.

For both consumers and businesses, international transactions are complex and costly.
Most U.S. websites do not accept orders for delivery to international addresses or payment
by foreign credit card. Fewer offer efficient and cost-effective
solutions for “fully landed” or true cost pricing, which includes     The growth for global
                                                                      eCommerce depends
paid duty, taxes, customs fees, insurance, and residential
                                                                      on the seamless
delivery charges. Even for domestic orders, several issues            integration of ordering
challenge consumers: inadequate visibility into the status of         and payment across
their order, lack of real-time notification and options to redirect   borders.
delivery, and finally, limited ability to effectively and efficiently
manage returns. The growth for global eCommerce depends on the seamless integration
of ordering and payment across borders.

The Postal Service platform is well positioned to connect the dots between senders and
receivers both physically and electronically. The platform can host applications that
remove some of the barriers to effective eCommerce and mCommerce. Outside third
parties will best provide some applications, but in other instances, the Postal Service may
be in a position to provide the solution itself.

        The Postal Service currently facilitates convenient parcel return services, including
         pick up by carrier and acceptance at retail outlets. Valuable consumer data about
         returned merchandise would enhance returns management solutions.

        The Postal Service would facilitate the incorporation of landed cost applications and
         solutions as a component offered to its business customers, thus enabling growth in
         parcel exports on the digital postal platform. Several applications already exist such
         as Borderfree and Clearpath.

        The most significant hurdle to further eCommerce growth is online payment.
         Fearing identity theft, consumers are reluctant to share personal financial
         information on the web.14 The Postal Service is in a position to offer a variety of
         solutions bridging the physical and electronic worlds. It could emulate Itella’s
         (Finland Post) NetPosti and have electronic invoices sent to eMailboxes for secure
         online payment. Australian Post, which recently acquired a payment platform

14
 Chloe Albanesius, “Study: Generation Y Taking Online Privacy to Heart,” PC Magazine, May 27, 2010,
www.pcmag.com/article2/0,2817,2364227,00.asp.


                                                      18
U.S. Postal Service Office of Inspector General                                                  April 19, 2011
Part 2: Expanding the Postal Platform                                                         RARC-WP-11-003


        provider, offers another model for developing this critical function. The Postal
        Service has already demonstrated its expertise in managing secure online
        payments through millions of online transactions daily, many of which are facilitated
        on its platform by licensed third parties.

Digital Concierge

With the vast amount of information available on the web and the explosion of e-mail,
texting, Tweets, and other communications, users have been bombarded with information.
In addition, as many utilize web applications for personal business, they are increasingly
concerned about limiting the amount of information they share online15 and with whom.
Individuals are seeking some sort of balance between sharing information, filtering
messages, and the ability to protect privacy.16 Some recent innovations are focused on
developing applications and services that help people decipher the “good from the bad”
and organize electronic data in a way that increases their Internet productivity.

The Postal Service has an opportunity to enhance its relationship with these individuals. It
can leverage its trust in establishing a safe “lock box” which would serve as a type of
curator for personal information ranging from financial payments and health records to
legal documents and electronic backups of personal papers. While most payment sites,
banks, and other online sites leave critical data on the providers’ sites, the lockbox would
allow consumers to maintain personal records on a personal site. The lockbox would not
only provide a high level of security, but also the means to share information efficiently and
quickly when needed.

In the physical world, many postal services offer a “Preference Service” (Belgium and
Great Britain, for example), which enables individuals to identify the advertising they want
to receive. It helps the advertiser target individuals who are likely to buy, thus eliminating
wasteful mailings to those who are not. For example, Poste Italiane’s EMailbox serves as
an agent for the individual and ensures that private information is not shared directly with
the advertiser.

Acting as the Digital Concierge, the Postal Service would leverage its experience with
individual consumers to ensure they receive what they want, when and where they want it.
This role leverages the trust, brand, and first mile/last mile presence. The Postal Service is
in an ideal position to serve as a trusted gatekeeper that preserves identity and privacy
while simultaneously facilitating personalized and targeted messages.

Digital Currency Exchange

Opportunities may also exist for the Postal Service to aid secure financial transactions on
its digital postal platform, moving beyond its historical role of issuing money orders and
providing electronic international money transfer services through Sure Money (Dinero
Seguro) with its partner, Bancomer. The Postal Service has experience with reloadable

15
  Ibid.
16
  Organisation for Economic Co-operation and Development, The Economic and Social Role of Internet Intermediaries,
April 2010, http://www.oecd.org/dataoecd/49/4/44949023.pdf.


                                                      19
U.S. Postal Service Office of Inspector General                                    April 19, 2011
Part 2: Expanding the Postal Platform                                           RARC-WP-11-003


stored value cards, though it discontinued them in 2003. Additionally, billions of dollars in
postage payments are already electronically transferred between commercial customers
and the Postal Service each year. Businesses and consumers trust that their financial
transactions with the Postal Service are secure.

Digital technologies could allow the Postal Service to expand its trusted role as a provider
of online currency transactions to underserved markets. Facilitating international
eCommerce transactions have been discussed in the Enabling eCommerce section.

Helping the Unbanked

In the spirit of its serving as the postal “provider of last resort” ensuring that “no-one is left
behind,” the Postal Service would help to facilitate financial transactions on its platform for
individuals without bank accounts or credit cards. Offering financial transactions both at
Post Office locations and online would provide a valuable service to this segment of
society that is often overlooked. A growing proportion of U.S. citizens are unbanked,
including working families, new immigrants, unemployed, homeless, or noncreditworthy
individuals. They need easier access to payment systems in order to transfer funds on
prepaid debit or stored value cards to cash or vice versa. The Postal Service would use its
identification verification skills, as it does with passport           The Postal Service
applications, to facilitate authenticated cash or prepaid debit        would help to facilitate
card disbursements from state and federal agencies to these            financial transactions
individuals at local Post Offices.                                     on its platform for
                                                                      individuals without
One somewhat surprising disruptive digital phenomenon is            bank accounts or credit
that while many individuals may be unbanked, they often             cards.
have mobile phones. In some African and Asian countries,
mobile phones have already become the primary means of payment and access to cash.
Examples of this service include M-Pesa, Kenya’s highly successful mobile money transfer
service, and Obopay, a similar service now offered in the United States. While these
services facilitate the transfer of funds from one phone to another, they require retail
facilities for receiving and disbursing cash. Post Offices, already well experienced in
handling money orders, would provide convenient and trusted outlets to facilitate such
financial transactions.


Conclusion
The Postal Service should consider addressing the inevitable digital disruption and radical
transformation of the postal ecosystem in America. It has the legacy of serving the nation
as a communications platform and it can continue to serve all of its customers with access
to physical as well as digital postal products. Given the rapid changes in technology and
consumer behavior, the Postal Service would benefit from identifying a lead functional area
where it could devise and implement a digital strategy. It can start by studying the
feasibility of some of the prospective applications identified in this white paper, particularly
the eMailbox foundation and eGovernment applications. Some of the other applications
may meet the criteria of an “ancillary service” though this classification process remains
open to interpretation.

                                                  20
U.S. Postal Service Office of Inspector General                                April 19, 2011
Part 2: Expanding the Postal Platform                                       RARC-WP-11-003


The Postal Service has the opportunity to extend its national platform into the digital world
and enable traditional service providers, as well as new entrepreneurial “applications
developers,” to generate a wide array of additional physical and digital postal services to
meet the present and future needs of digital natives and digital migrants. The framework
outlined in this paper is not a cure-all for solving the Postal Service’s ongoing financial
difficulties. However, by embracing a digital strategy, the Postal Service would be
providing needed solutions through a suite of digital products and services. It would
modernize a vital part of our national infrastructure and ensure that all Americans have the
opportunity to access an innovative postal platform that reflects America’s position as a
technology leader.




                                                  21
U.S. Postal Service Office of Inspector General             April 19, 2011
Part 2: Expanding the Postal Platform                    RARC-WP-11-003




                                              Appendix




                                                  22
U.S. Postal Service Office of Inspector General                                  April 19, 2011
Part 2: Expanding the Postal Platform                                         RARC-WP-11-003


Public Policy Implications and Options for the Postal Service to
Bridge the Digital Divide

Unlike a private company, the Postal Service is not free to design and implement a
digital strategy as it deems fit: any e-business strategies or services adopted must be
consistent with existing public policy, or must await changes in policy to allow it to
undertake them. The Postal Service operates under a mandate from Congress, as
codified under Title 39 of the U.S. Code, and within a well-developed and still evolving
regulatory framework.

This appendix considers whether the Postal Service can pursue a digital strategy in light
of existing public policy. It first provides an overview of the postal policy environment
including a review of the Postal Service Mission, USO and nonpostal products and
services. Finally, it analyzes specific digital applications according to the checklist
outlined in the main body of the paper.

Postal Policy

The prevailing U.S. postal statute is the Postal Accountability and Enhancement Act of
2006 (PAEA). It was enacted after roughly a decade of stakeholder debate over the
future of the Postal Service. Shortly after its passage, the first hints of the current
economic downturn surfaced. This helped accelerate a volume decline that had already
begun with the trend toward digital communications. These developments threatened
the financial viability of the Postal Service, instigating new efforts by postal stakeholders
to consider substantial additional changes in the law. Notwithstanding current legislative
proposals, today’s provisions of Title 39, as amended by the PAEA, remain the key
policy guideposts for the Postal Service. They set the existing policy framework within
which Postal Service digital initiatives must be considered.

Postal Service Mission and Universal Service Obligation

Sections 101(a) and 403(a) of Title 39 specify that the Postal Service shall be operated
as a basic and fundamental service provided to the American people. Its core obligation
is to provide postal services “to bind the nation together through personal, educational,
literary, and business correspondence.” The Postal Service is to provide adequate and
efficient postal services at fair and reasonable rates, and is to serve “as nearly as
practicable the entire population of the United States.” This universal service obligation
is at the heart of our nation’s postal system. However, it is not explicitly defined in law,
either in the PAEA or in previous postal statutes. Universal service has generally been
interpreted to mean the Postal Service will deliver to all parts of the country at a
reasonable price.

The PAEA directed the Postal Regulatory Commission (PRC) to identify the scope and
standards of universal service based on a comprehensive review of its history and




                                                  23
U.S. Postal Service Office of Inspector General                                            April 19, 2011
Part 2: Expanding the Postal Platform                                                   RARC-WP-11-003


development.17 The PRC issued its resulting Report on Universal Service and the
Postal Monopoly in December 2008, which concluded in part:

           The USO is not specific. The Postal Service is to achieve the best possible
           balance of these service features [geographic scope, product range, access,
           delivery, pricing, service quality, and an enforcement mechanism] consistent with
           efficient and economic practices. Congress has rarely established rigid,
           numerical standards of minimally acceptable service for each of these features.
           Rather, throughout its history, the Postal Service has been expected to use its
           flexibility to meet the needs and expectations of the Nation while balancing the
           delivery of service against budgetary constraints. This long-standing policy has
           worked well.

The report was completed before the full impact of the economic crisis hit the Postal
Service. Even so, the Commission’s December 19, 2008, letter accompanying the
report noted that a changing landscape might require new thinking about the USO:

           Had this report been issued several months ago, these factors would have
           led the Commission to recommend that no near-term changes be
           contemplated to universal postal service, the USO, the postal monopoly,
           or the mailbox monopoly. Although no immediate changes are called for,
           recent events require the Commission to recommend that Congress
           closely monitor the Postal Service’s financial situation as the possibility
           now exists that significant changes may become necessary to preserve
           effective and efficient postal services for the Nation.

The PRC report notes repeatedly that the USO is flexible. It further notes that the Postal
Service must balance overlapping requirements, such as meeting the needs of citizens
and maintaining an efficient and economical system. It concludes, “As history has
demonstrated, what is necessary to bind the nation together changes over time.”

Flexibility by policymakers in defining the USO will be essential as the Postal Service
finds its place in the digital world. Whether or not the Postal Service becomes a full
player in the digital world, many types of physical mail are likely to continue their decline
and erode profitability. This may necessitate a fresh look at universal service, with
perhaps a greater emphasis on the efficient and economic portion of the USO. Access
to retail services may not need to be the same as it is today. It might become too
expensive to support the current level of delivery service or the current service
standards. However, history indicates it is possible to redefine the universal service
obligation over time. Conceivably, this could be done as part of a strategy for moving
the Postal Service increasingly into the digital world. For example, universal service
might come to mean some complementary combination of physical and electronic
access.



17
     PAEA also directed the PRC to conduct a similar analysis of the postal monopoly.


                                                           24
U.S. Postal Service Office of Inspector General                                                    April 19, 2011
Part 2: Expanding the Postal Platform                                                           RARC-WP-11-003


Definition of Postal Products and Services

Section 101 of PAEA defines postal services as ‘the delivery of letters, printed matter, or
mailable packages, including acceptance, collection, sorting, transportation, or other
functions ancillary thereto.” It also defines “product” as “a postal service with a distinct
cost or market characteristic for which a rate or rates are, or may reasonably be,
applied.” The Postal Service has discretion to define its products. For purposes of
ratemaking, the products are categorized as either “market dominant” or “competitive.”

In defining postal products and services, PAEA went beyond previous postal statutes,
which had remained silent on this subject. This was largely in response to criticism that
the absence of a definition allowed the Postal Service to conduct nonpostal activities
that competed directly and, at times, unfairly with private companies. The Postal Service
also had a poor track record and incurred significant losses in its earlier nonpostal
initiatives (including those related to eCommerce).18 However, early failures often
indicate a culture of innovation. There are a growing number of postal observers who
believe the Postal Service should diversify to become more relevant in the digital age.
However, concerns about the Postal Service’s ability to break even and competition with
private sector providers will remain relevant to any debate about the Postal Service and
digital initiatives.

Nonpostal Products and Services

PAEA restricts the Postal Service from introducing new nonpostal services. It required
the PRC to review each nonpostal service the Postal Service already offered, to
determine whether it should continue based on (1) the public need for the service and
(2) the ability of the private sector to meet the public need for the service. The PRC
ultimately authorized 14 nonpostal services to continue, which the Postal Service has
since reduced to 10.19

Under the rules set out in PAEA, the Postal Service can conduct tests of experimental
products. To qualify, a product must be significantly different from any current Postal
Service product, not cause market disruption to any mailers, and be classified as either
market dominant or competitive. Anticipated revenues from the product must be below
$10 million annually.

Congress has recently taken up postal legislation, addressing many issues, including
the provision of nonpostal services. As part of that process, there may be some
loosening of current constraints on Postal Service activities. For example, Senator Tom
Carper’s bill, S. 3831, introduced in fall 2010, would allow the Postal Service to offer

18
   See, for example, U.S. Government Accountability Office, U.S. Postal Service: Legislation Needed to Address Key
Challenges, Testimony No. GAO-11-244T, December 2, 2010, http://www.gao.gov/new.items/d11244t.pdf and
U.S. Congressional Research Service, Postal Accountability and Enhancement Act, by Kevin R. Kosar, Report No.
RS22573, January 22, 2007,
http://waxman.house.gov/UploadedFiles/The_Postal_Accountability_and_Enhancement_Act.pdf.
19
   See PRC Docket No. MC2008-1 (often referred to as the “nonpostal services case”) and “Review of Nonpostal
Services Language,” Federal Register 75, No. 93 (May 14, 2010), pp. 27375–27377 for a list of the nonpostal
services the Postal Service offers.


                                                        25
U.S. Postal Service Office of Inspector General                                                     April 19, 2011
Part 2: Expanding the Postal Platform                                                            RARC-WP-11-003


nonpostal services. However if such new authority is eventually granted, it might come
with constraints. For example, both the Government Accountability Office (GAO) and
the PRC chairman raised concerns about granting the Postal Service an unregulated
return to nonpostal activities at a December 2010 Senate oversight hearing. They both
urged some sort of safeguards in the Carper legislation.

The GAO raised similar concerns about allowing the Postal Service to enter nonpostal
areas in an April 2010 report:

        Allowing the Postal Service to diversify into nonpostal activities would
        raise a number of issues, including whether it should engage in nonpostal
        areas where there are private-sector providers and, if so, under what
        terms. Other issues relate to concerns about unfair competition; whether
        the Postal Service’s mission and role as a government entity with a
        monopoly should be changed; as well as questions regarding how it would
        finance its nonpostal activities, what transparency and accountability
        provisions would apply; whether the Postal Service would be subject to
        the same regulatory entities and regulations as its competitors; and
        whether any losses might be borne by postal ratepayers or the taxpayer.

These concerns are juxtaposed with worries about what could happen to the Postal
Service without changes in postal policy, as also noted by the GAO:

        As communications and the use of the mail evolve, Congress will need to
        revisit policy issues related to the Postal Service, the services it provides,
        and how to best position the organization for the future. The current crisis
        presents the opportunity to act and position this important American
        institution for the future. If no action is taken, the risk of the Postal
        Service’s insolvency and the need for a bailout by taxpayers and the U.S.
        Treasury increases.20

Two policy imperatives, which are possibly in conflict, have informed the debates over
whether the Postal Service should offer nonpostal services. On one hand, there are
concerns that the Postal Service could unfairly tap its monopoly benefits and protections
when launching new services, since its infrastructure and workforce are primarily paid
for by revenues from its monopoly products and services. On the other hand, the Postal
Service is facing a new environment in which its monopoly revenues are no longer
sufficient to cover its fixed costs, and revenues from nonpostal services, including digital
products, might be needed to fund universal service. Therefore, the financial situation
framing the debate could be significantly different from earlier discussions of this issue.




20
  U.S. Government Accountability Office, U.S. Postal Service: Strategies and Options to Facilitate Progress toward
Financial Viability, Report No. GAO-10-455, April 12, 2010, http://www.gao.gov/new.items/d10455.pdf.


                                                        26
U.S. Postal Service Office of Inspector General                                  April 19, 2011
Part 2: Expanding the Postal Platform                                         RARC-WP-11-003


The Postal Service as a Digital Platform

As detailed in the paper, the Postal Service has functioned as a platform in its traditional
role providing a physical infrastructure throughout the United States – even though its
role has not typically been understood as such. From a policy perspective, can the
Postal Service play a similar role in the digital space? This section first analyzes this
question from a general policy perspective and then applies the policy checklist to
assess the digital platform.

General Considerations

There appears to be a need for some entity to provide a digital platform with the
trademark characteristics — affordability, reliability, universal accessibility, privacy,
confidentiality, and security — of the Postal Service physical platform. In many ways,
providing a platform to enable distribution of digitized products freely and effectively
would be a logical extension of the Postal Service’s traditional role in the physical world.

The Postal Service Continues Its Role as a Physical Platform

As noted earlier, affordability has been a hallmark of the Postal Service, both to
customers utilizing the system, and to American taxpayers in general. During the
decade or so in which postal reform was debated and PAEA passed, the twin concerns
of affordability of service to consumers and the cost to the nation of providing postal
services played key roles. They resulted in the decision to make the Postal Service a
self-sustaining entity that did not rely on public monies to operate. Today, with chronic
Postal Service losses and endemic strains on the U.S. budget that could make new
postal subsidies an unlikely prospect, affordability concerns are again playing a key role
in discussions of the Postal Service’s future. Creating a digital platform and introducing
more digital products could be one way to generate new revenues, while avoiding the
need for government subsidies. Revenues from a digital platform could offset some of
the costs of the physical network the Postal Service will need to maintain to reach core
segments and provide needed traditional services.

The Postal Service Is Both a Digital and Physical Platform with Positive Synergistic
Effects

Taken together, these factors make a compelling case that it is in the public interest for
the Postal Service to pursue a broader digital strategy complementing its physical
network. For the near future, the Postal Service mission will remain binding the nation
together by acting as a low-cost, efficient platform for facilitating correspondence and
commerce. To accomplish that mission, the Postal Service’s physical infrastructure will
be needed. This could be augmented with a digital platform offering the same core
characteristics — affordability, reliability, universal accessibility, security — the Postal
Service has provided in the physical world.




                                                  27
U.S. Postal Service Office of Inspector General                                April 19, 2011
Part 2: Expanding the Postal Platform                                       RARC-WP-11-003


Evaluation of Digital Applications

Each of the prospective digital applications must be evaluated based on the public
policy criteria described in the guiding principles of the overall strategy. These include
determining whether the opportunity is in the public interest, considering whether the
Postal Service would be in direct competition with the private sector, how it relates to
the USO, and if a policy change would be necessary. Two other questions, including an
assessment of whether the application fits the definition of a postal service under
current law and analyzing the feasibility of the application, are not part of this study,
though policymakers and postal executives will need to consider them.

Digital Application: eMailbox Coupled Physical and Digital Addressing

Public interest – As the foundation of the postal platform, coupled addressing would
further the efficient delivery of communications and commerce and would create a
mechanism for bridging the physical and electronic worlds. Such a service might also
help bring nondigital denizens into the digital world.

Competition with private sector and appropriate role for the Postal Service – As
described in the paper, there have been some private attempts to couple physical and
digital addresses. These have not yet been commercially successful. The Postal
Service maintains the U.S. physical address database and has sole access to every
U.S. mailbox, so there appears to be a legitimate role for it in a coupled addressing
initiative.

The Postal Service mission and USO – Coupled addresses would support the Postal
Service mission and USO, in particular, by creating a bridge between the physical and
electronic worlds.

Possible changes in policy – As noted, the definition of “ancillary” has not been tested
legally with respect to postal services. Therefore, it is unclear whether any changes in
statute would be required for the Postal Service to pursue coupled physical and digital
addresses.

Digital Application: eGovernment Services

Public interest – Development of an eGovernment platform would serve the public
interest in multiple ways. It would augment and support the Postal Service’s continuing
physical operations, provide a vehicle for effectively reaching all U.S. denizens with
necessary communications and services, and contribute to overall government
efficiency.

Competition with private sector and appropriate role for the Postal Service – Arguably,
there are no private sector companies providing a comprehensive digital platform
characterized by affordability, reliability, universal accessibility with the reach and




                                                  28
U.S. Postal Service Office of Inspector General                                  April 19, 2011
Part 2: Expanding the Postal Platform                                         RARC-WP-11-003


security of the Postal Service. While there are several government agencies with some
jurisdiction over digital matters, none fills this role.

The Postal Service mission and USO – The eGovernment platform, supported by the
Postal Service’s continuing physical network, would help bind the nation together. It
would provide affordable access to all Americans through a combination of digital and
physical outreach. The Postal Service already provides eGovernment services in the
form of passport applications, which combines providing a government service with
identity validation.

Possible changes in policy – No statutory changes would be needed for the Postal
Service if it were to pursue eGovernment services offering.

Digital Application: Tools for Identity Validation, Privacy Protection, and Financial
Security

Public interest – The “Wild West” nature of the digital world creates significant risks for
users. Minimizing some of the greatest risks would be in the public interest. The Postal
Service’s protection of identity management, privacy, and financial transactions in the
physical world has clearly served the public interest. There is a perceived need for
these same protections digitally.

Competition with private sector and appropriate role for the Postal Service – Some
private companies provide security tools for the electronic world. There are also many
advocates for maintaining the current unregulated digital environment. Notwithstanding
these facts, security is generally a government function and a public good, so there may
be a role for the Postal Service in enforcement. However, other federal agencies (such
as the Federal Communications Commission) have more experience dealing with these
issues. Thus, it is unclear whether the Postal Service is the sole U.S. agency that could,
or should, play this role.

The Postal Service mission and USO – Security tools could support the Postal Service
mission and USO if these concepts are extended to the electronic sphere and if the
tools were to maintain or increase access to the digital world.

Possible changes in policy – It appears that the Postal Service may need new authority
to proceed with identity validation, privacy protection, and financial security tools.

Digital Application: Hybrid and Reverse Hybrid Mail

Public interest – Hybrid mail and reverse hybrid mail services would further the efficient
delivery of communications and commerce. They would also support the coupling of
physical addresses with e-mail addresses using a top-level domain name such as .gov,
.com, or the Universal Postal Union’s new .post nomenclature.

Competition with private sector and appropriate role for the Postal Service – Private
providers, including a number of Postal Service strategic partners, are already supplying


                                                  29
U.S. Postal Service Office of Inspector General                                 April 19, 2011
Part 2: Expanding the Postal Platform                                        RARC-WP-11-003


hybrid mail services. Further expansion into reverse hybrid mail seems to be a logical
next step and could be accomplished through partnerships with existing providers.

The Postal Service mission and USO – Hybrid mail services could support the Postal
Service mission and USO, particularly if these concepts are extended to embrace a
combination of physical and electronic means of communication.

Possible changes in policy – It is unclear whether any changes in statute would be
required for the Postal Service to pursue this initiative, as the Postal Service already
offers a form of hybrid mail services.

Digital Application: Enabling eCommerce

Public interest – There are many gaps in eCommerce fulfillment, which redounds to the
detriment of consumers and businesses. Filling these gaps would benefit both.

Competition with private sector and appropriate role for the Postal Service – There are
many private sector companies providing various tools designed to minimize
eCommerce gaps. However, none provides the type of platform the Postal Service
could offer – one that would lend itself to multiple applications for filling gaps.

The Postal Service mission and USO – A digital platform, supported by the Postal
Service’s continuing physical network, would help bind the nation together. In particular,
it would allow the Postal Service to collaborate with existing providers to further the
growth of eCommerce. This would benefit both businesses and consumers.

Possible changes in policy – A statutory change is probably necessary to allow the
Postal Service to undertake this initiative. However, if policymakers accept the rationale
of a physical Postal Service platform that should be complemented by a digital one, they
may be inclined to grant such authority.

Digital Application: Digital Concierge

Public interest – Many Americans feel overwhelmed by the volume of online information
and may want to manage the present digital communication onslaught. However, if the
Postal Service were to propose digital concierge services, it might provoke a debate
similar to that over “do not mail” efforts in the physical world, with opponents and
proponents adopting arguments similar to that debate. This makes it difficult to conclude
there is a clear-cut public interest in this initiative.

Competition with private sector and appropriate role for the Postal Service – As noted in
the paper, some private companies provide certain digital concierge capabilities.
However, none offers the comprehensive suite of services discussed, nor do many
private providers enjoy the level of trust accorded the Postal Service.

The Postal Service mission and USO – As in the case of the public interest question, it
is unclear whether digital concierge services would be perceived to support the Postal


                                                  30
U.S. Postal Service Office of Inspector General                                 April 19, 2011
Part 2: Expanding the Postal Platform                                        RARC-WP-11-003


Service’s mission and USO. On the one hand, proponents could argue that these
services, which would be available to anyone, would increase the efficiency and efficacy
of online communications. On the other hand, opponents could argue that digital
concierge services would limit the ability to communicate online.

Possible changes in policy – The Postal Service would likely need new authority to
pursue digital concierge services.

Digital Application: Digital Currency Exchange

Public interest – There is arguably a public interest in assisting the “unbanked” to
conduct financial transactions.

Competition with private sector and appropriate role for the Postal Service – There are
already many providers of financial services, some of which are targeted towards
segments of the population that tend to be unbanked. Thus, there is a legitimate
question whether this is an appropriate role for the Postal Service.

The Postal Service mission and USO – Providing financial services to underserved
segments through the provision of prepaid debit or stored value cards could support the
Postal Service’s mission of binding the nation together and its obligation to reach all
Americans. These services can be an extension of current money order and
international money transfer (IMTS) product offerings and past offerings of stored value
cards.

Possible changes in policy – The Postal Service would likely need new authority to
pursue currency exchange services.




                                                  31
